HHS/OIG, Audit - "Review of Medicaid Outpatient Drug Expenditures in
Montana for the Period October 1, 2001, Through September 30, 2004,"
(A-07-07-04103)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Outpatient
Drug Expenditures in Montana for the Period October 1, 2001, Through September
30, 2004," (A-07-07-04103)
January 8, 2008
Complete Text of Report is available in PDF format (984 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to
determine whether the Montana Department of Public Health and Human
Services (the State agency) claims for
reimbursement of Medicaid outpatient drug expenditures complied with Federal
requirements.
The State agencys
claims for reimbursement of Medicaid outpatient drug expenditures for fiscal
years 2002 through 2004 did not fully comply with Federal requirements.  Of the
$266 million ($198 million Federal share) claimed,
$992,440 (Federal
share) represents expenditures for drug products that were not eligible for
Medicaid coverage because they were either (1) terminated drugs for which the
termination dates were listed on the CMS quarterly drug tape before the drugs
were dispensed or (2) inadequately supported compound drug expenditures.
An additional $363,210 (Federal
share) represents expenditures for drug
products that were not listed on the quarterly drug tapes.  Because the
State agency did not verify whether these drugs were eligible for Medicaid
coverage, these drug expenditures may not be allowable for Medicaid
reimbursement.
We recommended that the State agency (1) refund
$992,440 to the Federal Government
for drug expenditures that were not eligible
for Medicaid coverage, (2) work with CMS to resolve $363,210
in payments for drugs that were not listed
on the quarterly drug tapes and that may not have been eligible for Medicaid
coverage, and (3) strengthen internal controls to ensure that claimed
Medicaid drug expenditures comply with Federal requirements.  The State agency concurred with all of the recommendations.